Appendix A
Summary Order and Judgment - United States Court of
Appeals for the Second Circuit (April 24, 2019)

la
18 - 1248 - cv
hue v. JPMorgan Chase & Co.
UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT
SUMMARY ORDER
Rulings by summary order do not have precedential effect. Citation to a summary
ORDER FILED ON OR AFTER JANUARY 1, 2007, IS PERMITTED AND IS GOVERNED BY FEDERAL
Rule of Appellate Procedure 32.1 and this court's Local Rule 32.1.1. When citing
ASUMMARY ORDER IN A DOCUMENT FILED WITH THIS COURT, A PARTY MUST CITE EITHER THE
Federal Appendix or an electronic database (with the notation "summary order").
A PARTY CITING A SUMMARY ORDER MUST SERVE A COPY OF IT ON ANY PARTY NOT
REPRESENTED BY COUNSEL.

At a stated term of the United States Court of Appeals for the Second Circuit, held at the
Thurgood Marshall United States Courthouse, 40 Foley Square, in the City of New York,
on the 24th day of April, two thousand nineteen.
PRESENT: RICHARD C. WESLEY,
DENNY CHIN,
Circuit Judges,
LEWIS A. KAPLAN,
District Judge*
x
CANDICE LUE
Plaintiff - Appellant,
v.

18 - 1248 - cv

JPMORGAN CHASE & CO., ALEX KHAVIN,
FIDELIA SHILLINGFORD, JOHN VEGA,
HELEN DUBOWY, PHILIPPE QUIX, THOMAS
POZ, CHRIS LIASIS, MICHELLE SULLIVAN,
Defendants - Appellees. **
x

* Judge Lewis A. Kaplan, of the United States District Court for the Southern District of New
York, sitting by designation.
** The Clerk of Court is instructed to amend the official caption to conform to the above.

2a
FOR PLAINTIFF - APPELLANT:

CANDICE LUE, pro se, Lodi, New Jersey.

FOR DEFENDANTS - APPELLEES: ANSHEL J. KAPLAN (Robert S. Whitman, on the
brief), Seyfarth Shaw LLP, New York, New York.
Appeal from the United States District Court for the Southern District of New York
(Nathan, J.).
UPON DUE CONSIDERATION, IT IS HEREBY ORDERED, ADJUDGED,
AND DECREED that the judgment of the district court is AFFIRMED.
Plaintiff - appellant Candice Lue, proceeding pro se, appeals the district court' s
judgment entered March 28, 2018, in favor of defendants - appellees JPMorgan Chase &
Co. and its employees (collectively, "defendants"), dismissing Lue's employment
discrimination and retaliation claims.1 By memorandum and order entered March 27,
2018, the district court granted defendants' motion for summary judgment. We assume
the parties' familiarity with the underlying facts, the procedural history of the case, and
the issues on appeal.

i

Lue does not reference her state tort claims, hostile work environment claim, or her "aiding and
abetting" and "failure to take steps to prevent" claims, except to the extent that she refers this Court to
arguments in documents outside her appellate brief. Hence, we deem these claims abandoned. See Lederman
u. N.Y.C. Dep’t of Parks & Recreation, 731 F.3d 199, 203 n.l (2d Cir. 2013) ("Appellants do not preserve
questions for appellate review by merely incorporating an argument made to the district court by reference
in their brief." (internal quotation marks and alterations omitted)); LoSacco v. City of Middletown, 71 F.3d
88, 92 (2d Cir. 1995) (issues not raised in a pro se appellate brief are abandoned).

3a
I. Procedural Matters
Lue argues that the district court abused its discretion in striking her opposition to
summary judgment, imposing page limits on any new submission, and ultimately deeming
defendants' summary judgment motion unopposed. We review the district court's grant
of defendants' motion to strike and its imposition of page limits for abuse of discretion.
See Design Strategy, Inc. v. Davis, 469 F.3d 284, 296 (2d Cir. 2006) (motion to strike)2; Pa.
Pub. Sch. Emps.' Ret. Sys. v. Morgan Stanley & Co., 772 F.3d 111, 121 - 22 (2d Cir. 2014)
(imposition of page limits). We likewise consider the district court' s deeming defendants'
summary judgment motion unopposed - - as we would its grant of default judgment - for abuse of discretion. City of New York v. Mickalis Pawn Shop, LLC, 645 F.3d 114, 131
(2d Cir. 2011); see also Caban Hernandez v. Philip Morris USA, Inc., 486 F.3d 1, 7 - 8 (1st
Cir. 2007).
Lue submitted a lengthy opposition that was out of proportion to the defendants'
motion, including a 198 - page memorandum of law in response to defendants' 25 pages.
The district court' s decision to strike this submission and to instruct Lue to resubmit her
opposition in compliance with a reasonable page limitation

2

There is some confusion as to whether a district court' s grant of a motion to strike is reviewed for
manifest error or abuse of discretion. Compare Hollander v. Am. Cyanamid Co., 172 F.3d 192, 198 (2d Cir.
1999) ("We will not disturb a district court's grant of a motion to strike unless manifestly erroneous."), with
Design Strategy, Inc., 469 F.3d at 296 (analyzing motion to strike under abuse of discretion standard).
Because we conclude that the district court' sdecision to strike Lue' s opposition survives the more lenient
abuse of discretion standard, we need not resolve this inconsistency here.

4a
was not an abuse of discretion. Although Lue argues that the court' s page limits would
have prevented her from presenting "ninety percent" of her arguments, she made no
attempt to comply with the district court' s instructions and has not shown that she could
not adequately oppose summary judgment within the court' s limits. Contrary to Lue' s
argument on appeal, the district court did not impose page limits on affidavits or other
evidence. Lue ' s argument regarding retroactive application of individual rules of practice
is similarly meritless; the district court struck her filings as "overly burdensome" and not
for failure to comply with these rules, and the record reflects that Lue was served with
defendants' motion to strike. Under these circumstances, the district court' s decision to
strike Lue' s submission and impose page limits was well within the range of permissible
decisions.3
The district court did not abuse its discretion in deeming defendants' summary
judgment motion unopposed, given Lue's repeated failure to submit a compliant
opposition. Lue failed to file an opposition in compliance with the court' s orders, despite
eight extensions of time to comply and five warnings of the consequence of continued
noncompliance. See Fed. R. Civ. P. 83(b). " [A] 11 litigants, including pro ses, have an
obligation to comply with court orders. When they flout that obligation

3
Lue claims judicial bias because the district court struck her opposition, referred the case to
mediation, and declined to enter default judgment in her favor. She also asserts, incorrectly, that the district
court misquoted her in an order. These arguments fail because the adverse rulings alleged here do not
support a claim of judicial bias. See Zuh.ua Chen v. Chen Qualified Settlement Fund, 552 F.3d 218, 227 (2d
Cir. 2009).

5a
they, like all litigants, must suffer the consequences of their actions. Here, [Lue] was
clearly warned about the consequences that would follow if [s]he disobeyed the court' s
order." McDonald v. Head Criminal Court Supervisor Officer, 850 F.2d 121, 124 (2d Cir.
1988); see also LeSane v. Hall's Sec. Analyst, Inc., 239 F.3d 206, 211 (2d Cir. 2001) ("[I]n
cases such as these, resolutions on summary judgment (with defendant's Rule 56.1
statements deemed admitted by plaintiff) are generally to be preferred to dismissals under
Rule 41(b)."). Accordingly, the district court did not abuse its discretion in deeming the
motion unopposed.
II. Summary Judgment
"We review de novo the award of summary judgment, construing the evidence in
the light most favorable to the nonmoving party and drawing all reasonable inferences
and resolving all ambiguities in its favor." Jaffer v. Hirji, 887 F.3d 111, 114 (2d Cir. 2018)
(internal quotation marks and alterations omitted). Nevertheless, the non - moving party
may not rely upon "conclusory statements or mere allegations"; she must "go beyond the
pleadings, and by . . . her own affidavits, or by the depositions, answers to interrogatories,
and admissions on file, designate specific facts showing that there is a genuine issue for
trial." Davis v. New York, 316 F.3d 93, 100 (2d Cir. 2002) (internal quotation marks
omitted). Where a motion for summary judgment is unopposed, summary judgment is
proper only if the court is satisfied that the moving

6a
party has met its burden with sufficient support in the record evidence. Vt. Teddy Bear Co.
v. 1 - 800 Beargram Co., 373 F.3d 241, 244 (2d Cir. 2004).
We note that although defendants' motion for summary judgment was deemed
unopposed, the district court afforded "additional care" to Lue's position because of her
status as a pro se litigant, and because extra caution should be exercised in "granting
summary judgment to an employer when its intent is at issue." See Lue v. JPMorgan
Chase & Co., No. 16 - cv - 3207, 2018 WL 1583295, at *5 (S.D.N.Y. Mar. 27, 2018). In
addition, the district court relied only on defendants' factual assertions that were
independently supported by evidence in the record. Id. at *2.
A. Disparate Treatment
The district court properly granted summary judgment on Lue' s disparate treatment
claims because the record does not contain evidence from which a reasonable jury could
find that an adverse employment action took place under circumstances giving rise to an
inference of discrimination. See McDonnell Douglas Corp. u. Green, 411 U.S. 792, 802
(1973); Littlejohn v. City of New York, 795 F.3d 297, 307, 312 (2d Cir. 2015).
The district court did not, as Lue contends, improperly rely on her supervisor's race to
conclude that Lue had not experienced discrimination. See Feingold v. New York, 366 F.3d
138, 155 (2d Cir. 2004) (noting that courts may not apply a "conclusive presumption" that
employers will not discriminate against members of their own race). Indeed, the district
court also considered that Lue' s white predecessor received the

7a
same assignments as Lue and was subject to the same requirements to work from home;
the same person made both the decision to hire Lue and the decision to fire her; and the
lack of evidence of similarly situated employees who were treated more favorably or
specific statements suggesting that defendants' actions were racially motivated. Lue,
2018 WL 1583295, at *6 - 7. Although the evidence shows that Lue repeatedly complained
that defendants' actions were discriminatory, no other evidence in the record supports a
racial motivation. The district court correctly concluded that such evidence was
insufficient for Lue' s disparate treatment claims to survive a motion for summary
judgment. See Davis, 316 F.3d at 100.
B. Retaliation
Lue failed to show that a genuine issue of material fact existed with respect to her
retaliation claim. A plaintiff alleging retaliation must show a causal connection between
her complaints of discrimination and the defendant' s actions. See Van Zant v. KLM Royal
Dutch Airlines, 80 F.3d 708, 714 (2d Cir. 1996). Lue makes a conclusory allegation of
retaliatory intent, but the only evidence she cites in support is the fact that some of the
adverse actions followed her complaints of discrimination.

"Where timing is the only

basis for a claim of retaliation, and gradual adverse job actions began well before the
plaintiff had ever engaged in any protected activity, an inference of retaliation does not
arise." Slattery v. Swiss Reinsurance Am. Corp., 248 F.3d 87, 95 (2d Cir. 2001). Here, the
record shows that defendants' criticisms of Lue' s

8a
communication style and her response to feedback predated her complaints of
discrimination. Therefore, in the absence of other evidence of an intent to retaliate, we
conclude that the district court properly granted summary judgment on Lue' s retaliation
claim. See id.
We have considered all of Lue' s remaining arguments and find them to be without
merit. For the foregoing reasons, the judgment of the district court is
AFFIRMED.
FOR THE COURT:
Catherine O' Hagan Wolfe, Clerk of Court

Appendix B
Motion Order - Denying Motion to Stay Mandate Pending
the Filing of a Petition for a Writ of Certiorari with the U. S.
Supreme Court (May 28, 2019).

9a
UNITED STATES COURT OF APPEALS
FOR THE
SECOND CIRCUIT
At a Stated Term of the United States Court of Appeals for the Second Circuit, held
at the Thurgood Marshall United States Courthouse, 40 Foley Square, in the City of New
York, on the 28th day of May, two thousand and nineteen.
Before: Richard C. Wesley,
Denny Chin,
Circuit Judges,
Lewis A. Kaplan,
District Judge*
Candice Lue,
ORDER
Plaintiff-Appellant,
Docket No. 18-1248
v.
JPMorgan Chase & Co., Alex Khavin, Fidelia Shillingford, John Vega, Helen Dubowy,
Philippe Quix, Thomas Poz, Chris Liasis, Michelle Sullivan,
Defendants-Appellees.

Appellant, pro se, moves for a stay of the mandate pending the filing of a petition
for writ of certiorari.
IT IS HEREBY ORDERED that the motion is DENIED.
For the Court:
Catherine O' Hagan Wolfe,
Clerk of Court

10a
*Judge Lewis A. Kaplan, of the United States District Court for the Southern District of New York,
sitting by designation.

Appendix C
Judgment Mandate

11a
18 - 1248 - cv
Lue v. JPMorgan Chase & Co.
UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT
SUMMARY ORDER
Rulings by summary order do not have recedential effect. Citation to a summary
ORDER FILED ON OR AFTER JANUARY 1, 2007, IS PERMITTED AND IS GOVERNED BY FEDERAL

Rule of Appellate Procedure 32.1 and this court's Local Rule 32.1.1. When citing a
SUMMARY ORDER IN A DOCUMENT FILED WITH THIS COURT, A PARTY MUST CITE EITHER THE
Federal Appendix or an electronic database (with the notation "summary order").
A PARTY CITING A SUMMARY ORDER MUST SERVE A COPY OF IT ON ANY PARTY NOT
REPRESENTED BY COUNSEL.

At a stated term of the United States Court of Appeals for the Second Circuit, held
at the Thurgood Marshall United States Courthouse, 40 Foley Square, in the City of New
York, on the 24th day of April, two thousand nineteen.
PRESENT: RICHARD C. WESLEY,
DENNY CHIN,
Circuit Judges,
LEWIS A. KAPLAN,
District Judge*
x

CANDICE LUE
Plaintiff - Appellant,
v.

18 - 1248 - cv

JPMORGAN CHASE & CO., ALEX KHAVIN,
FIDELIA SHILLINGFORD, JOHN VEGA,
HELEN DUBOWY, PHILIPPE QUIX, THOMAS
POZ, CHRIS LIASIS, MICHELLE SULLIVAN,
Defendants - Appellees.**
x

*
Judge Lewis A. Kaplan, of the United States District Court for the Southern District of New
York, sitting by designation.
**
The Clerk of Court is instructed to amend the official caption to conform to the above.

12a
FOR PLAINTIFF - APPELLANT:

CANDICE LUE, pro se, Lodi, New Jersey.

FOR DEFENDANTS - APPELLEES: ANSHEL J. KAPLAN (Robert S. Whitman, on the
brief), Seyfarth Shaw LLP, New York, New York.
Appeal from the United States District Court for the Southern District of New York

(Nathan, J.).

UPON DUE CONSIDERATION, IT IS HEREBY ORDERED, ADJUDGED,
AND DECREED that the judgment of the district court is AFFIRMED.
Plaintiff - appellant Candice Lue, proceeding pro se, appeals the district court' s
judgment entered March 28, 2018, in favor of defendants - appellees JPMorgan Chase &
Co. and its employees (collectively, defendants"), dismissing Lue's employment
discrimination and retaliation claims.1 By memorandum and order entered March 27,
2018, the district court granted defendants' motion for summary judgment. We assume
the parties' familiarity with the underlying facts, the procedural history of the case, and
the issues on appeal.

Lue does not reference her state tort claims, hostile work environment claim, or her "aiding and
abetting" and "failure to take steps to prevent" claims, except to the extent that she refers this Court to
arguments in documents outside her appellate brief. Hence, we deem these claims abandoned. See Lederman
v. N.Y.C. Dep’t of Parks & Recreation, 731 F.3d 199, 203 n.l (2d Cir. 2013) ("Appellants do not preserve
questions for appellate review by merely incorporating an argument made to the district court by reference
in their brief." (internal quotation marks and alterations omitted)); LoSacco v. City of Middletown, 71 F.3d
88, 92 (2d Cir. 1995) (issues not raised in a pro se appellate brief are abandoned).

13a
I. Procedural Matters
Lue argues that the district court abused its discretion in striking her opposition to
summary judgment, imposing page limits on any new submission, and ultimately deeming
defendants' summary judgment motion unopposed. We review the district court' s grant
of defendants' motion to strike and its imposition of page limits for abuse of discretion.
See Design Strategy, Inc. v. Davis, 469 F.3d 284, 296 (2d Cir. 2006) (motion to strike)2; Pa.
Pub. Sch. Emps.' Ret. Sys. v. Morgan Stanley & Co., 772 F.3d 111, 121 - 22 (2d Cir. 2014)
(imposition of page limits). We likewise consider the district court's deeming defendants'
summary judgment motion unopposed - - as we would its grant of default judgment
for abuse of discretion. City of New York v. Mickalis Pawn Shop, LLC, 645 F.3d 114, 131
(2d Cir. 2011); see also Caban Hernandez v. Philip Morris USA, Inc., 486 F.3d 1, 7 - 8 (1st
Cir. 2007).
Lue submitted a lengthy opposition that was out of proportion to the defendants'
motion, including a 198 - page memorandum of law in response to defendants' 25 pages.
The district court' s decision to strike this submission and to instruct Lue to resubmit her
opposition in compliance with a reasonable page limitation

2
There is some confusion as to whether a district court' s grant of a motion to strike is reviewed for
manifest error or abuse of discretion. Compare Hollander v. Am. Cyanamid Co., 172 F.3d 192, 198 (2d Cir.
1999) ("We will not disturb a district court's grant of a motion to strike unless manifestly erroneous."), with
Design Strategy, Inc., 469 F.3d at 296 (analyzing motion to strike under abuse of discretion standard).
Because we conclude that the district court' s decision to strike Lue' s opposition survives the more lenient
abuse of discretion standard, we need not resolve this inconsistency here.

14a
was not an abuse of discretion. Although Lue argues that the court' s page limits would
have prevented her from presenting "ninety percent" of her arguments, she made no
attempt to comply with the district court' s instructions and has not shown that she could
not adequately oppose summary judgment within the court' s limits. Contrary to Lue' s
argument on appeal, the district court did not impose page limits on affidavits or other
evidence. Lue' s argument regarding retroactive application of individual rules of practice
is similarly meritless; the district court struck her filings as "overly burdensome" and not
for failure to comply with these rules, and the record reflects that Lue was served with
defendants' motion to strike. Under these circumstances, the district court' s decision to
strike Lue' s submission and impose page limits was well within the range of permissible
decisions.3
The district court did not abuse its discretion in deeming defendants' summary
judgment motion unopposed, given Lue's repeated failure to submit a compliant
opposition. Lue failed to file an opposition in compliance with the court' s orders, despite
eight extensions of time to comply and five warnings of the consequence of continued
noncompliance. See Fed. R. Civ. P. 83(b). "[A]ll litigants, including pro ses, have an
obligation to comply with court orders. When they flout that obligation

Lue claims judicial bias because the district court struck her opposition, referred the case to
mediation, and declined to enter default judgment in her favor. She also asserts, incorrectly, that the district
court misquoted her in an order. These arguments fail because the adverse rulings alleged here do not
support a claim of judicial bias. See Zuhua Chen v. Chen Qualified Settlement Fund, 552 F.3d 218, 227 (2d
Cir. 2009).

15a
they, like all litigants, must suffer the consequences of their actions. Here, [Lue] was
clearly warned about the consequences that would follow if [s]he disobeyed the court' s
order." McDonald v. Head Criminal Court Supervisor Officer, 850 F.2d 121, 124 (2d Cir.
1988); see also LeSane v. Hall's Sec. Analyst, Inc., 239 F.3d 206, 211 (2d Cir. 2001) ("[I]n
cases such as these, resolutions on summary judgment (with defendant's Rule 56.1
statements deemed admitted by plaintiff) are generally to be preferred to dismissals under
Rule 41(b)."). Accordingly, the district court did not abuse its discretion in deeming the
motion unopposed.
II. Summary Judgment
"We review de novo the award of summary judgment, construing the evidence in
the light most favorable to the nonmoving party and drawing all reasonable inferences
and resolving all ambiguities in its favor." Jaffer v. Hirji, 887 F.3d 111, 114 (2d Cir. 2018)
(internal quotation marks and alterations omitted). Nevertheless, the non - moving party
may not rely upon "conclusory statements or mere allegations"; she must "go beyond the
pleadings, and by . . . her own affidavits, or by the depositions, answers to interrogatories,
and admissions on file, designate specific facts showing that there is a genuine issue for
trial." Davis v. New York, 316 F.3d 93, 100 (2d Cir. 2002) (internal quotation marks
omitted). Where a motion for summary judgment is unopposed, summary judgment is
proper only if the court is satisfied that the moving

16a
party has met its burden with sufficient support in the record evidence. Vt. Teddy Bear Co.
v. 1 - 800 Beargram Co., 373 F.3d 241, 244 (2d Cir. 2004).
We note that although defendants' motion for summary judgment was deemed
unopposed, the district court afforded "additional care" to Lue's position because of her
status as a pro se litigant, and because extra caution should be exercised in "granting
summary judgment to an employer when its intent is at issue." See Lue v. JPMorgan
Chase & Co., No. 16 - cv - 3207, 2018 WL 1583295, at *5 (S.D.N.Y. Mar. 27, 2018). In
addition, the district court relied only on defendants' factual assertions that were
independently supported by evidence in the record. Id. at *2.
A. Disparate Treatment
The district court properly granted summary judgment on Lue' s disparate treatment
claims because the record does not contain evidence from which a reasonable jury could
find that an adverse employment action took place under circumstances giving rise to an
inference of discrimination. See McDonnell Douglas Corp. v. Green, 411 U.S. 792, 802
(1973); Littlejohn v. City of New York, 795 F.3d 297, 307, 312 (2d Cir. 2015).
The district court did not, as Lue contends, improperly rely on her supervisor' s race to
conclude that Lue had not experienced discrimination. See Feingold v. New York, 366 F.3d
138, 155 (2d Cir. 2004) (noting that courts may not apply a "conclusive presumption" that
employers will not discriminate against members of their own race). Indeed, the district
court also considered that Lue' s white predecessor received the

17a
same assignments as Lue and was subject to the same requirements to work from home;
the same person made both the decision to hire Lue and the decision to fire her; and the
lack of evidence of similarly situated employees who were treated more favorably or
specific statements suggesting that defendants' actions were racially motivated. Lue,
2018 WL 1583295, at *6 - 7. Although the evidence shows that Lue repeatedly complained
that defendants' actions were discriminatory, no other evidence in the record supports a
racial motivation. The district court correctly concluded that such evidence was
insufficient for Lue's disparate treatment claims to survive a motion for summary
judgment. See Davis, 316 F.3d at 100.
B. Retaliation
Lue failed to show that a genuine issue of material fact existed with respect to her
retaliation claim. A plaintiff alleging retaliation must show a causal connection between
her complaints of discrimination and the defendant' s actions. See Van Zant v. KLM Royal
Dutch Airlines, 80 F.3d 708, 714 (2d Cir. 1996). Lue makes a conclusory allegation of
retaliatory intent, but the only evidence she cites in support is the fact that some of the
adverse actions followed her complaints of discrimination.

"Where timing is the only

basis for a claim of retaliation, and gradual adverse job actions began well before the
plaintiff had ever engaged in any protected activity, an inference of retaliation does not
arise." Slattery v. Swiss Reinsurance Am. Corp., 248 F.3d 87, 95 (2d Cir. 2001). Here, the
record shows that defendants' criticisms of Lue' s

18a
communication style and her response to feedback predated her complaints of
discrimination. Therefore, in the absence of other evidence of an intent to retaliate, we
conclude that the district court properly granted summary judgment on Lue' s retaliation
claim. See id.
We have considered all of Lue' s remaining arguments and find them to be without
merit. For the foregoing reasons, the judgment of the district court is
AFFIRMED.
FOR THE COURT:
Catherine O' Hagan Wolfe, Clerk of Court

Appendix D
Relevant Statutory and Regulatory Provisions

19a
I
Title VII of the Civil Rights Act of 1964, Pub. L. 88-352 is codified at 42 U.S.C. §§ 2000e to
2000e-17:
Title VII prohibits employment discrimination based on race, color, religion, sex and
national origin.
******

SEC. 2000e-2. [Section 703] provides:
(a) Employer practices
It shall be an unlawful employment practice for an employer (1) to fail or refuse to hire or to discharge any individual, or otherwise to discriminate
against any individual with respect to his compensation, terms, conditions, or privileges of
employment, because of such individual’s race, color, religion, sex, or national origin; or
(2) to limit, segregate, or classify his employees or applicants for employment in any way
which would deprive or tend to deprive any individual of employment opportunities or
otherwise adversely affect his status as an employee, because of such individual’s race,
color, religion, sex, or national origin.
******

SEC. 2000e-3. [Section 704] provides:
(a) Discrimination for making charges, testifying, assisting, or participating in
enforcement proceedings
It shall be an unlawful employment practice for an employer to discriminate against any
of his employees or applicants for employment, for an employment agency, or joint labormanagement committee controlling apprenticeship or other training or retraining,
including on—the-job training programs, to discriminate against any individual, or for a
labor organization to discriminate against any member thereof or applicant for
membership, because he has opposed any practice made an unlawful employment practice
by this subchapter, or because he has made a charge,

20a
testified, assisted, or participated in any manner in an investigation, proceeding, or
hearing under this subchapter.
II
42 U.S.C. § 1981 ("Section 1981") - Equal Rights under the Law provides:
(a) Statement of Equal Rights:
All persons within the jurisdiction of the United States shall have the same right in every
State and Territory to the full and equal benefit of all laws and proceedings for the
security of persons and property as is enjoyed by white citizens, and shall be subject to like
punishment, pains, penalties, taxes, licenses, and exactions of every kind, and to no other.
Ill
Fifth and Fourteenth Amendment Rights provide:
No person shall be deprived of life, liberty, or property without due process of law. The
judge must protect the [Party’s] due-process rights by ensuring the [Party] understands
every phase of the proceedings.
IV
18 U.S.C. § 1621 - Penury Generally provides:
(2) Whoever in any declaration, certificate, verification, or statement under penalty of
perjury as permitted under section 1746 of title 28, United States Code, willfully
subscribes as true any material matter which he does not believe to be true is guilty of
perjury and shall, except as otherwise expressly provided by law, be fined under this title
or imprisoned not more than five years, or both.
V
18 U.S.C. § 1505 - Obstruction of proceedings before departments, agencies, and
committees provides:
Whoever, with intent to avoid, evade, prevent, or obstruct compliance, in whole or in part,
with any civil investigative demand duly and properly made under the Antitrust Civil
Process Act, willfully withholds, misrepresents, removes from any place, conceals, covers
up, destroys, mutilates, alters, or by other means falsifies any documentary material,
answers to written interrogatories, or oral testimony, which is the subject of such demand;
or attempts to do so or solicits another to do so shall be fined under this title/imprisoned
not more than 5 years.

*-.^N

NO.

IN THE
SUPREME COURT OF THE UNITED STATES

CANDICE LUE,
Petitioner,
v.
JPMORGAN CHASE & CO., a Delaware Corporation; ALEX KHAVIN, an individual;
FIDELIA SHILLINGFORD, an individual; JOHN VEGA, an individual; HELEN
DUBOWY, an individual; PHILIPPE QUIX, an individual; THOMAS POZ, an individual;
CHRIS LIASIS, an individual; MICHELLE SULLIVAN, an individual,
Respondents.

On Petition for a Writ of Certiorari
to the United States Court of Appeals
for the Second Circuit

SUPPLEMENTAL APPENDIX

CANDICE LUE
Pro Se Petitioner
4122 Bel Vista Court
Lodi, NJ 07644
(973) 340-1231
info@candicelue .com

SUPPLEMENTAL APPENDIX
TABLE OF CONTENTS
Appendix E
Memorandum Opinion and Order United States District Court for the
Southern District of New York (March 27, 2018)

la - 14a

Appendix F
Clerk’s Judgment United States District Court for the
Southern District of New York (March 28, 2018)

15a

Appendix E
Memorandum Opinion and Order United States District Court for the Southern District of
New York (March 27, 2018)

la
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF NEW YORK
March 27, 2018.
Candice Lue,
Plaintiff,

16-CV-3207 (AJN)

-vJPMorgan Chase & Co., et al.,

MEMORANDUM
OPINION & ORDER

Defendants.

ALISON J. NATHAN, District Judge:
Plaintiff Candice Lue ("Plaintiff' or "Lue") alleges various forms of discrimination,
harassment, and retaliation based on her race and stemming from her employment with
Defendant JPMorgan Chase & Co. ("Chase"). Defendants move the Court for summary
judgment. Upon the Court's evaluation of the evidence presented, Defendants' motion for
summary judgment is GRANTED.
I. BACKGROUND
A. Procedural Background
On April 29, 2016, Plaintiff commenced the action. Dkt. No. 1. On August 1, 2016,
Defendants answered. Dkt. No. 35. Discovery closed on March 31, 2017. Dkt. No. 71. On
May 9, 2017, Defendants moved for summary judgment. See Dkt. Nos. 89-100. After
receiving the Court's approval of two requests for extensions of time to oppose Defendants'
motion for summary judgment, see Dkt. Nos. 103, 105, Plaintiff ultimately submitted
opposition papers totaling roughly 800 pages, including a 198-page Memorandum of Law.
The Court struck the submissions as "overly burdensome," and ordered Plaintiff to
resubmit revised submissions within certain page limits. See Dkt. No. 120. Plaintiff
petitioned the Court to reconsider; the Court denied this request, but extended Plaintiffs
deadline for her revised submissions. See Dkt. No. 125. The Court subsequently provided
further clarity on the exact page limits to which Plaintiffs submissions must abide, and
extended her filing deadline once more. See Dkt. No. 127. Instead, Plaintiff appealed to the
Second Circuit, seeking a writ of mandamus and an emergency stay. See No. 17-2751, Dkt.

2a
No. 1 (2d Cir. Sept. 1, 2017). The Court of Appeals denied Plaintiffs motion on November
6, 2017. See No. 17-2751, Dkt. Nos. 22-23 (2d Cir.).
Subsequently, on November 20, 2017 the Court ordered Plaintiff "to submit her
opposition to Defendants' motions for summary judgment within the Court's prescribed
page limits by December 1, 2017 or the Court will consider the motions unopposed and
fully submitted." Dkt. No. 131 (emphasis in original). Plaintiff responded on November 28,
2017, deeming the Court's November 20 Order a "farce" and the Second Circuit's
November 6 Orders as having been issued "in collusion" with the District Court. Dkt. No.
132.
On December 4, 2017, the Court issued an order reciting the lengthy history of
Plaintiffs unwillingness to comply with the Court's orders and giving Plaintiff "until
December 29, 2017 to submit her opposition within the prescribed page limits." See Dkt.
No. 134 at 2. The Court warned that "[t]his constitutes Plaintiffs last chance, and the
Court will deem the motion, unopposed and fully submitted if nothing is received on or
before" that date. Id.1
Plaintiff submitted two responses, both of which lodge various procedural
complaints or focus on Defendants' alleged perjury, but neither of which can be reasonably
construed as an opposition to Defendants' motions for summary judgment. See Dkt. Nos.
135 & 136. Defendants then filed a letter asking the Court to deem the motion unopposed
and fully submitted and Plaintiff filed a response that again asked for her original
opposition to summary judgment to be restored to the docket, but which did not attempt to
comply with the Court's repeated orders. Dkt. Nos. 137 & 138.
Accordingly, the Court now deems the motion unopposed and fully submitted.
B. Factual Summary
On April 29, 2016, Plaintiff filed a 234-page Amended Complaint naming as
Defendants her former employer, JPMorgan Chase, as well as a number of JPMorgan
Chase employees. See generally Amended Complaint ("Am. Compl."), Dkt. No. 33. While
Plaintiff, a Black woman, see Am. Compl. ^ 4, pleaded ten causes of action, the crux of
Plaintiffs complaint stems from her supervisor's assignment to her of various tasks she
found demeaning or humiliating, and which she believed reflected her status as the "only
Black Analyst" in the Counterparty Risk Group, the team within Chase on which she
served. See Am. Compl.
4-5.
Because this motion is deemed unopposed, see supra Part I.A., the Court does not
have the benefit of Plaintiffs responses to Defendants' Statement of Undisputed Material
Facts Under Local Civil Rule 56.1. See Dkt. No. 90 [hereafter, "Defs. 56.1"]. Even still, "the
district court may not rely solely on the statement of undisputed facts contained in the
moving party's Rule 56.1 statement." Vt. Teddy Bear Co. v. 1-800 Beargram Co., 373 F.3d
241, 244 (2d Cir. 2004). "It must be satisfied that the citation to evidence in the record
supports the assertion." Id. However, a pro se plaintiff may not rely solely on her
complaint to defeat a summary judgment motion. See Champion v. Artuz, 76 F.3d 483, 485
While the order mistakenly listed both December 29 and December 15,2017 as Plaintiffs deadline, this discrepancy is
immaterial given that Plaintiff failed to meet either deadline.

3a
(2d Cir. 1996) (per curiam). Given this, the Court adopts as undisputed the following
material facts only because each statement is also supported by an appropriate citation to
evidence in the record.
1. Plaintiffs Employment Background
Plaintiff began her employment with Chase on August 20, 2012 as an Energy
Confirmations Drafting Analyst ("Drafting Analyst") in the Commodities Operations
Department of the Commercial Investment Bank at Chase. Defs. 56.1 f 2. In this role,
except for the first few months of her employment, Plaintiff reported to Defendant
Michelle Sullivan, who in turn reported to Defendant Chris Liasis. Defs. 56.1 3. While
Plaintiff served in that role, she received three performance reviews from Sullivan or
Liasis. Defs. 56.1 If 4-6. In each review, Plaintiff received an "M" for "Meets
Expectations," although she was informed that her "communication style needs continued
refinement," and that her "[r]eaction to constructive feedback [] should be focused [on] as a
key area of improvement." Id.
On or about November 10, 2014, following the sale of Chase's commodities business
and the closing of her department, Plaintiff was transferred to the role of Credit Reporting
Risk Analyst ("Reporting Analyst") in the Counterparty Risk Group ("CRG") of JPMorgan
Asset Management. Defs. 56.1 f 7. In this position, Lue reported to Defendant Fidelia
Shillingford, who, in turn, reported to Defendant Alex Khavin. Defs. 56.1 f 8. Shillingford
is a Black woman. Id.
In or about December 2014, Sullivan and Shillingford conducted Plaintiff's year-end
performance review, with each manager providing feedback. Defs. 56.1 f 9. Plaintiff
received an "M-" for "Low Meets Expectations" from Sullivan for her time as a Drafting
Analyst. Id. Plaintiff responded by sending Human Resources ("HR") a five-page response,
calling Sullivan's feedback "malicious," "mendacious," and "defamatory," and proceeded to
file an official complaint against Sullivan with HR. Defs. 56.1 If 10-11. HR conducted an
investigation into Plaintiffs claims and concluded that they were unfounded and that
Sullivan was able to substantiate the feedback she gave Plaintiff on the performance
review. Defs. 56.1 ff 12-14. Chase informed Plaintiff of the appeals process, but she
declined to pursue an appeal. Defs. 56.1f 15.
2. Plaintiffs Objections to Performing Certain Tasks
As a Reporting Analyst, Plaintiffs job description included "[contributing to team­
wide efforts such as risk assessment methodology enhancements, portfolio-wide reviews
and preparing management presentations." Am. Compl., Ex. H. Khavin assigned Plaintiff
the task of collecting and distributing materials, as well as taking minutes, for the
monthly governance meetings (collectively, the "Tasks"). Defs. 56.1 f 17. As a result,
Plaintiff met with Shillingford to complain that Khavin was treating her "as if she was the
help, as if this is 1910." Id.
Prior to Plaintiffs arrival in the CRG, Baruch Horowitz, a White man and a senior
Associate (a higher rank than Plaintiffs role of Analyst), had performed the Tasks
exclusively. Defs. 56.1f 18. During Horowitz's absence for disability leave in 2014, Khavin

4a
had each CRG member bring and distribute their own materials, and temporarily rotated
the task of taking minutes among the CRG analysts and associates. Id. However, when
Plaintiff was hired, in an effort to make the Governance Meeting more efficient, Khavin
asked her to collect, consolidate, and distribute the meeting materials as Horowitz had
done. Declaration of Alex Khavin ("Khavin Decl.") Tf 14.
After Plaintiff complained to Shillingford about the Tasks, Shillingford conferred
with Khavin and they agreed to temporarily rotate the Tasks among analysts and
associates in order to accommodate Plaintiff and give her time to get up to speed in her
new role. Defs. 56.1 t 19. At the April 2015 Governance Meeting, Khavin asked the group
to send their materials for the May meeting to Plaintiff, who had been assigned the Tasks
that month. Defs. 56.1 21. In response, Plaintiff got up and walked out of the meeting.
Id. When Khavin spoke with Plaintiff to find out why she walked out, Plaintiff stated it
was because she had been assigned the Tasks, which she found to be demeaning. Defs.
56.1 22. Khavin responded that the Tasks were part of Plaintiffs role, were extremely
important, added value to the group, and that Plaintiff could enlist the help of the group's
administrative assistant. Khavin Decl. | 22. On April 24, 2015, Plaintiff sent an email to
Shillingford complaining that Khavin was demeaning her by assigning her the Tasks and
asking, "Am I the help? Is this 1910?" Defs. 56.1f 23.
In May, the same pattern repeated. When one member of the CRG sent Plaintiff his
materials prior to the May Governance Meeting, Plaintiff responded by emailing the entire
group, asking them to handle their own materials and writing "I find it unfair and
demeaning that the task of printing, sorting, organizing, stapling, sending out and lugging
YOUR presentation materials to the meetings is placed on me." Defs. 56.1 If 25. In
response, when Khavin reiterated her expectations of Plaintiff that "there will be one
package for the monthly meeting which will be put together by you, and sent out ahead of
the meeting," Plaintiff responded that she felt it was demeaning and asked "Am I the
help? Is this 1910?" Defs. 56.11f 26-27.
3. HR's Investigation into Plaintiffs Objections
On May 26, 2015, Plaintiff sent a meeting invitation to Shillingford to discuss the
"lack of trust and confidence I have in your management." Defs. 56.1 ^ 24. Shillingford
forwarded the email to HR. Id. Based on the email Shillingford forwarded, HR contacted
Plaintiff to schedule a time to discuss her concerns. Defs. 56.1 1f 28. When Plaintiff
responded that she considered herself to be a victim of discrimination, HR requested that
Defendant John Vega, an Executive Director in Chase's Employee Relations department,
conduct an investigation into Plaintiffs concerns. Defs. 56.11f1l 29-30. Vega concluded that
Plaintiffs allegations were unfounded and that there was no evidence of discriminatory
animus. Defs. 56.1 1 33. Among other things, Vega found that anyone in Plaintiffs role
was responsible for the Tasks, and that by assigning Plaintiff the Tasks, her supervisors
had not changed her role. Id. Vega informed Plaintiff of his findings on July 29, 2015, and
the investigation was closed. Id.

5a
4. Plaintiffs Performance Improvement Plan, Written Warning, and
Termination
On July 30, 2015, Shillingford and Defendant Helen DuBowy, HR Business Partner
to Asset Management Risk, conducted Plaintiffs mid-year performance review. Defs. 56.1
If 34. Shillingford had asked DuBowy to sit in on the review because of Vega's
investigation and because she thought it was important to have an HR representative
present. Id. At the performance review, Plaintiff was placed on a performance
improvement plan ("PIP") and informed that she was expected to perform all tasks
assigned to her and to improve her communication style. Defs. 56.1 If 35. Plaintiff refused
to sign the PIP. Declaration of Fidelia Shillingford ("Shillingford Decl."), Dkt. No. 93, Ex.
F.
On August 26, 2015, Shillingford asked Plaintiff to remind the group members to
save their documents for the August Governance Meeting in a shared folder so that
Plaintiff could perform the Tasks. Defs. 56.1 f 38. Plaintiff simply responded "I have no
further comments," and did not print the materials for the meeting. Defs. 56.1 ft 38-39.
Again, on September 23, 2015, Shillingford asked Plaintiff to bring copies of three
items to the September Governance Meeting, but Plaintiff stated that she would print only
one of the documents. Defs. 56.1 f 40. Shillingford emailed Plaintiff in response that "[it]
is rather disrespectful and insubordinate for you to refuse to perform a responsibility
assigned by your immediate manager. This is one of my responsibilities which I am off
boarding to you given my increasing workload and it's my expectation!] that you fully pick
this responsibility [up] going forward." Id. (citing Shillingford Decl., Ex. J). Plaintiff
responded that "this is stemming from the racial discrimination charge I raised with HR."
Defs. 56.1 f 41.
Following these incidents, Plaintiff was issued a written warning on September 24,
2015, in which Shillingford made clear that she expected Plaintiff to "perform the job
responsibilities for which she was hired," including "to print all materials for our monthly
team meeting and provide copies for each team member." Shillingford Decl., Ex. K.
Plaintiff responded by emailing Shillingford, accusing her of being "the enabler, the
facilitator, the coordinator and the enforcer of the second class treatment which originated
from Alex Khavin." Shillingford Decl., Ex. L. After another exchange of tense emails
between Plaintiff and Shillingford, Shillingford forwarded the emails to HR, along with a
note indicating her impression that the environment "has become toxic and inoperable"
and that her "primary focus has shifted to managing my interactions and the work has
become secondary." Shillingford Decl., Ex. M.
After Plaintiff again refused to perform the Tasks for the October 2015 Governance
Meeting, Defs. 56.1 H 45, and refused to coordinate with another analyst to complete the
Tasks for the December Governance Meeting, Defs. 56.1 f 47, Shillingford decided that
Plaintiffs employment should be terminated. Defs. 56.1 ^ 49.
On January 6, 2016, DuBowy signed off on a recommendation to terminate the
Plaintiff, which cited both the PIP and written warning as including "issues on refusing to
perform assigned tasks [as] well as a lack of professionalism including inappropriate tone
of emails and verbal communication. Declaration of Helen DuBowy, Ex. C. The
recommendation to terminate concluded that "[d]espite numerous conversations that

6a
Candice has had with Employee Relations and management, she still Q has not had
sustained improvement in these areas." Id. Plaintiff was terminated that day. Defs. 56.1 f
51.
II. LEGAL STANDARD
Summary judgment shall be granted "if the movant shows that there is no genuine
dispute as to any material fact and the movant is entitled to judgment as a matter of law."
Fed. R. Civ. P. 56(a). The court must "construe the facts in the light most favorable to the
non-moving party and resolve all ambiguities and draw all reasonable inferences against
the movant." Delaney v. Bank of Am. Corp., 766 F.3d 163, 167 (2d Cir. 2014) (internal
quotation marks and alterations omitted). If the court determines that "the record taken
as a whole could not lead a rational trier of fact to find for the nonmoving party, there is
no genuine issue for trial" and summary judgment should be granted to the moving party.
Matsushita Elec. Indus. Co., Ltd. v. Zenith Radio Corp., 475 U.S. 574, 587 (1986) (internal
quotation marks and citation omitted).
It is the initial burden of the movant to present evidence on each material element
of its claim or defense and demonstrate that it is entitled to relief as a matter of law. Vt.
Teddy Bear Co., 373 F.3d at 244. When a motion for summary judgment is unopposed, as
here, courts may not grant the motion "without first examining the moving party's
submission to determine if it has met its burden of demonstrating that no material issue
of fact remains for trial." Id. at 244, 246. Moreover, as stated above, in determining
whether the movant has met this burden, the court may not rely solely on the movant's
56.1 statement; rather, the court must be satisfied that the citation to the record evidence
supports the assertion. Id. at 244.
In this case, the Court affords additional care to Plaintiff's position for two reasons.
First, as a pro se litigant, Plaintiff is afforded "special solicitude" under Second Circuit
law. See Graham v. Lewinski, 848 F.2d 342, 344 (2d Cir. 1988). A pro se plaintiff is entitled
to have her pleadings held to "less stringent standards than formal pleadings drafted by
lawyers." Haines v. Kerner, 404 U.S. 519, 520 (1971). The pleadings must be read liberally
and interpreted to "raise the strongest arguments that they suggest," Burgos v. Hopkins,
14 F.3d 787, 790 (2d Cir. 1994), however the plaintiff's pro se status does not relieve her of
the usual requirements of summary judgment, specifically the obligation that she come
forward with evidence demonstrating a genuine dispute regarding material fact. See Carey
v. Crescenzi, 923 F.2d 18, 21 (2d Cir. 1991). Plaintiff was served with the notice required
by Local Rule 56.2, informing her of the nature of a summary judgment motion and the
manner in which it could be opposed, and warning that failure to respond may lead the
court to "accept defendants' factual assertions as true." Dkt. No. 100.
Second, the Second Circuit has instructed that trial courts must be cautious about
granting summary judgment to an employer when its intent is at issue. See Gallo v.
Prudential Residential Servs., LP, 22 F.3d 1219, 1224 (2d Cir. 1994). Because the
employer rarely leaves direct evidence of its discriminatory or retaliatory intent, courts
must carefully search for circumstantial proof. Id. However, it is "beyond cavil that
summary judgment may be appropriate even in the fact-intensive context of

7a
discrimination cases." Abdu-Brisson v. Delta Air Lines, Inc., 239 F.3d 456, 466 (2d Cir.
2001).
Ultimately, the district court may grant an unopposed motion for summary
judgment against a pro se plaintiff if: (1) the pro se plaintiff has received adequate notice
that failure to file a proper opposition may result in dismissal of the case; and (2) the
Court is satisfied that "the facts as to which there is no genuine dispute ‘show that the
moving party is entitled to a judgment as a matter of law.’” See Champion, 76 F.3d at 48586 (quoting Fed. R. Civ. P. 56(c)).
III. DISCUSSION
Plaintiff pleads ten causes of action in her complaint, all of which are styled as
violations of Title VII, 42 U.S.C. §§ 2000e et seq. and 42 U.S.C. § 1981, but some of which
are more appropriately construed as raising other claims. See Triestman v. Fed. Bureau of
Prisons, 470 F.3d 471, 472 (2d Cir. 2006) (per curiam) (requiring courts to liberally
construe a pro se party's pleadings to raise the strongest argument they suggest). The
Court addresses Plaintiffs Title VII and § 1981 claims first.
A. Title VII and § 1981
As an initial matter, "[m]ost of the core substantive standards that apply to claims
of discriminatory conduct in violation of Title VII are also applicable to claims of
discrimination in employment in violation of § 1981." Patterson v. Cty. of Oneida, NY, 375
F.3d 206, 225 (2d Cir. 2004). The differences that do exist are inapplicable here, except
insofar as Plaintiff attempts to hold the individual Defendants liable under Title VII,
which is not cognizable. Id. at 225-227 (explaining the differences). As a result, as further
explained below, for the same reasons that Defendant Chase is entitled to summary
judgment in the face of Plaintiffs Title VII allegations, so too are all of the individual
Defendants under § 1981.
The central problem with Plaintiffs allegations, in fight of the undisputed evidence
described above, is that she fails to offer sufficient proof of racial motive.
Under Title VII, to withstand a motion for summary judgment, a discrimination
plaintiff must satisfy the burden-shifting analysis set forth in McDonnell Douglas.
McPherson v. N.Y. City Dep't of Educ., 457 F.3d 211, 215 (2d Cir. 2006) (citing McDonnell
Douglas Corp. v. Green, 411 U.S. 792 (1973)). A plaintiff first bears the minimal burden of
establishing a prima facie case of discrimination. If she is so able, she is then aided by a
presumption of discrimination unless the defendant proffers a "legitimate,
nondiscriminatory reason" for the adverse employment action, in which event the
presumption disappears and the plaintiff bears the greater burden of proving that the
employer's proffered reason was mere pretext for discrimination. Id.
As explained below, applying this framework to Plaintiffs Title VII claims shows
that she cannot satisfy the minimal burden of establishing a prima facie case on the basis
of the undisputed facts. But assuming arguendo she were able to meet that standard,
Defendants also offer a legitimate, nondiscriminatory reason for terminating Plaintiffs
employment that Plaintiff cannot show is pretextual.

8a
1. Plaintiff Fails To Establish a Prima Facie Case of Discrimination
To establish a prima facie case of discrimination, Plaintiff must show that (1) she is
a member of a protected class; (2) she was qualified for the position; (3) she suffered an
adverse employment action; and (4) that action occurred under circumstances giving rise
to an inference of discriminatory intent. McDonnell Douglas, 411 U.S. at 802. Plaintiff is
able to satisfy the first three elements. On the fourth element, Plaintiff may satisfy this
burden showing that she was "similarly situated in all material respects" to the
individuals against whom she would have the court compare her. Shumway v. United
Parcel Serv., Inc., 118 F.3d 60, 64 (2d Cir. 1997).
Here, Plaintiff draws a comparison to her non-Black colleagues at the Associate or
Analyst level in her group at work. But "[i]n addition to identifying similarly situated
employees who are subject to the same evaluation and discipline standards, a plaintiff
must also show that those employees engaged in acts of comparable seriousness but were
not punished as severely as plaintiff." Risco v. McHugh, 868 F.Supp.2d 75, 100-01
(S.D.N.Y. 2012). Plaintiff offers no evidence that similarly situated employees who also
similarly refused to handle specific tasks, or who communicated with their supervisors in
a similar manner, were treated more favorably. And while it is true that Plaintiff seems to
have been specifically asked to handle the Tasks, a jury could not reasonably infer from
this fact alone that the request was attributable to racial discrimination. As the
undisputed facts show, Khavin had previously assigned this same task to Baruch
Horowitz, a White man with a higher job title than Plaintiff, suggesting that the
assignment of the Tasks to Plaintiff was unrelated to her race.
Similarly, Plaintiff claims that she was treated differently from non-Black analysts
in being required to ask for permission before working from home and in having her
requests to work from home to care for her mother denied. See Am. Compl. f 19. However,
the undisputed evidence showed that Horowitz and other analysts had to ask for
permission to work from home, and that this was consistent with the group's policy. See
Declaration of Baruch Horowitz, Dkt. No. 99, f 7; Shillingford Decl. ft 13-14 & Ex. C.
Plaintiff offers no specific counter-example that raises a genuine dispute.
Plaintiff offers no specific statements that any individuals made suggesting the
assignment was racially motivated. Conclusory statements by Plaintiff that she was being
treated as a "house slave" and given "demeaning" tasks because of her race are insufficient
without further proof. See Risco, 868 F. Supp. 2d at 99 ("A plaintiffs self-serving
statement, without direct or circumstantial evidence to support the charge, is also
insufficient."); accord Olorde v. Streamingedge, Inc., No. ll-CV-6934 (GBD)(AJP), 2014
WL 1689039, at *14 (S.D.N.Y. Apr. 29, 2014), report and recommendation adopted, 2014
WL 3974581 (S.D.N.Y. Aug. 13, 2014) ("[Plaintiff] may have a legitimate complaint that he
was overworked and required to perform personal tasks for [his boss], but there is no
evidence that this was a form of discrimination."). "Statements that are devoid of any
specifics, but replete with conclusions, are insufficient to defeat a properly supported
motion for summary judgment." Bickerstaff v. Vassar Coll., 196 F.3d 435, 452 (2d Cir.
1999).
Plaintiffs complaint suggests many disagreements with her supervisors' evaluation
of her behavior and performance, both in her time as both a Drafting Analyst and as a

9a
Reporting Analyst, but as a matter of law this disagreement is not evidence of
discriminatory intent. Jimoh v. Ernst & Young, 908 F. Supp. 220, 226 (S.D.N.Y. 1995)
(citing Dister v. Continental Grp., Inc., 859 F.2d 1108, 1116 (2d Cir. 1988)). "While plaintiff
argues that her behavior during the incidents cited by defendants was appropriate and
justified, a plaintiffs factual disagreement with the validity of an employer's
nondiscriminatory reason for an adverse employment decision does not, by itself, create a
triable issue of fact." Fleming v. MaxMara USA, 644 F. Supp. 2d 247, 266 (E.D.N.Y. 2009),
aff'd, 371 F. App'x 115, 117-18 (2d Cir. 2010). Even accepting Plaintiffs view as correct,
there is no evidence in the record to support a finding that Sullivan, Liasis, Shillingford, or
Khavin were motivated by any racial animus in exaggerating or lying in evaluating
Plaintiffs performance. See Grillo v. N.Y. City Transit Auth., 291 F.3d 231, 235 (2d Cir.
2002).
Finally, although the Supreme Court has soundly "rejected any conclusive
presumption" that an employer will not discriminate against members of their own race,
see Feingold v. New York, 366 F.3d 138, 155 (2d Cir. 2004) (quoting Oncale v. Sundowner
Offshore Servs., Inc., 523 U.S. 75, 78 (1998)), the fact that Shillingford is also a Black
woman can be seen to undermine any inference of discriminatory animus. See, e.g., Baguer
v. Spanish Broad. Sys., Inc., 04-CV-8393, 2010 WL 2813632, at *11 (S.D.N.Y. July 12,
2010), aff'd, 423 F. App'x 102 (2d Cir. 2011); Drummond v. IPC Inti, Inc., 400 F. Supp. 2d
521, 532 (E.D.N.Y. 2005); Olorode, 2014 WL 1689039, at *16. Shillingford is also the
person who made both the decision to hire Plaintiff and the decision to fire her, further
undermining any possible inference of discrimination. See Grady v. Affiliated Cent., Inc.,
130 F.3d 553, 560 (2d Cir. 1997).
In sum, none of Plaintiffs allegations raises an inference of discriminatory intent
sufficient to establish a prima facie case under Title VII or § 1981. Cf. Jeune v. City of
N.Y., ll-CV-7424, 2014 WL 83851, at *5 (S.D.N.Y. Jan. 9, 2014) ("The only evidence
[plaintiff] proffers in support of th[e] assertion [that he was treated differently], however,
is his own conclusory testimony that [defendant] ‘didn't. .. [treat] the white officers or the
Latin officers' in a similar fashion, and that he ‘[didn't] think [defendant] would' extend
the hours of someone whose child was sick if the person was ‘of her own race.’ But this
testimony lacks the detail necessary to support an inference of discrimination." (record
citations omitted)); accord Moore v. Kingsbrook Jewish Med. Ctr., No. ll-CV-3625, 2013
WL 3968748, at *7 (E.D.N.Y. July 30, 2013); KarimSeidou v. Hosp. of St. Raphael, No. 09CV-51, 2012 WL 6628886, at *5 (D. Conn. Dec. 19, 2012). Plaintiff cannot prove
discrimination by speculation and by reliance on her own subjective beliefs.
2. Even if Plaintiff Had Established a Prima Facie Case, Defendants
Offer Non-Discriminatory Explanations Plaintiff Fails to Prove
Are Pretextual
Even if Plaintiff were able to establish her prima facie case of discrimination,
Defendants have proffered a "legitimate, nondiscriminatory reason" for the adverse
employment action, and Plaintiff cannot meet her burden that these reasons were
pretextual. McPherson, 457 F.3d at 215.

10a
Plaintiff was terminated for unsatisfactory performance, continued failure to
perform her assigned tasks, and for a lack of professionalism, including using an
inappropriate tone in emails and verbal communication; each of these issues was
identified in her PIP and in a written warning. Defs. 56.1 ^ 50. As the Defendants note,
these are all legitimate reasons for termination. Mot. at 6 (citing Nieves v. Angelo, Gordon
& Co., 341 F. App'x 676, 679 (2d Cir. 2009) (insubordination and failure to complete
assigned tasks were legitimate reasons for termination) and Gill v. Mt. Sinai Hosp., 160 F.
App'x 43, 44 (2d Cir. 2005) (failure to complete job duties, inability to take directions, and
confrontational and unprofessional behavior were legitimate business reasons for
termination)). Given the many instances of Plaintiff's refusal to follow directions from her
supervisor and hostile tone in communications highlighted above, the Court finds
Defendants' proffered justifications are well-supported.
For the same reasons that Plaintiff is unable to establish an inference of
discriminatory intent, she is also unable to carry her burden that Defendants' reasons
were pretextual. The Court does not second-guess an employer's business decisions absent
specific evidence of an improper motive, see Scaria v. Rubin, 117 F.3d 652, 654-55 (2d Cir.
1997) (per curiam), and Plaintiff fails to present such evidence. As discussed above,
Plaintiff offers no valid comparator. Her White predecessor was exclusively responsible for
the same Tasks and had to obtain the same permissions to work from home. Shillingford,
who is Black, made the decision to both hire and fire Plaintiff. And Plaintiff presents no
evidence — such as racist comments or other discriminatory behavior — that anyone
involved in evaluating her performance, investigating her complaints, or making
employment decisions about her harbored a racial animus.
A plaintiff must "produce not simply some evidence, but sufficient evidence to
support a rational finding that the legitimate, nondiscriminatory reasons proffered by the
employer were false, and that more likely than not [discrimination] was the real reason for
the [adverse employment action]." Van Zant v. KLM Royal Dutch Airlines, 80 F.3d 708,
714 (2d Cir. 1996) (internal quotation marks and citation omitted). Plaintiff fails to meet
this burden.
3. Plaintiffs Evidentiary Deficiencies Extend to All of Her Title VII
Causes of Action
Plaintiffs first cause of action, for "Unlawful Discrimination on the Basis of Race" in
violation of Title VII and § 1981, is what is principally analyzed above, but the same
deficiencies the Court previously identified — specifically the absence of evidence of racial
motive — apply to many of her other causes of action as well.
Plaintiffs sixth cause of action, styled as "Intentional Infliction of Career
Regression and Career Stagnation on the Basis of Race," is primarily based on her
allegations that Defendants Liasis and Sullivan undermined her work, gave her negative
feedback in her performance review, and failed to promote her. See Am. Compl. f ^ 142-67.
Defendants present nondiscrimnatory explanations for each decision or action. See Mot. at
17 (citing Scaria, 117 F.3d at 654 (disclaiming reexamination of a business decision absent
specific evidence of discriminatory motive)). Plaintiff presents no evidence of racial
discrimination apart from her own speculation, and whatever disagreements she may

11a
have had with their decisions are not evidence of discriminatory intent. Jimoh, 908 F.
Supp. at 226 (S.D.N.Y. 1995) (citing Dister, 859 F.2d at 1116).
Plaintiff’s eighth and ninth causes of action focus on Plaintiffs claim that Khavin
switched who her manager would be from a White woman to Shillingford, who is Black,
after hiring Plaintiff, in an effort to segregate the Black members of the team and to use
Shillingford as cover to enforce Khavin's bigotry. See Am. Compl. 1ft 4, 178-93. Defendants
have presented undisputed evidence that Khavin made the decision that Shillingford
would supervise the new hire before Plaintiff was hired, and Plaintiff was explicitly told
this both verbally and in her offer letter. See Khavin Decl. ft 5-6; Shillingford Decl. f'f 4-5
& Ex. A. Again, Plaintiff raises no genuine factual dispute.
a) Retaliation
Plaintiffs second cause of action alleges unlawful retaliation under Title VII and §
1981. Retaliation claims also receive the burden-shifting analysis from McDonnell Douglas
set forth above, but a plaintiff establishes a prima facie case by showing that: (1) she was
engaged in a protected activity of which her employer was aware; (2) she suffered some
disadvantageous employment action; and (3) there was a causal connection between the
protected activity and the adverse employment decision. See Van Zant, 80 F.3d at 714.
"The causal connection can be established directly through evidence of retaliatory animus
directed at plaintiff by defendant, or indirectly by showing either that other employees
engaged in similar conduct were given more favorable treatment or that the adverse
action closely followed the protected activity." Dean v. Westchester Cty. Dist. Attorney's
Office, 119 F. Supp. 2d 424, 432 (S.D.N.Y. 2000) (citing Johnson v. Palma, 931 F.3d 203,
207 (2d Cir. 1991)).
Assuming arguendo that Plaintiff could establish her prima facie case, she cannot
raise a triable issue of pretext in response to Defendants' contention that the adverse
employment action was nonretaliatory. First, in line with the deficiencies described above,
Plaintiff solely relies on her subjective beliefs and conclusory allegations, and not on
specific facts, that Chase had a retaliatory motive. See Am. Compl. ff 99-109. This does
not satisfy Plaintiffs burden. See, e.g., Ennis v. Sonitrol Mgmt. Corp., No. 02-CV-9070
(TPG), 2006 WL 177173, at *18 (S.D.N.Y. Jan. 24, 2006) (granting defendants summary
judgment because "[tjhere is no evidence that the reasons defendants proffered for
plaintiffs discharge are untrue or are merely pretext for a retaliatory motive."). That
Plaintiff has a different assessment of her work performance from Defendants is
insufficient to establish pretext; she would need to offer evidence that Defendants'
proffered justification was not actually the reason she was fired. See Stevens v. New York,
No. 09-CV-5237 (CM), 2011 WL 3055370, at *7 (S.D.N.Y. July 20, 2011).
Second, to the extent that Plaintiff relies on the temporal proximity between when
she filed her charge with the Equal Employment Opportunity Commission (EEOC) and
when she was placed on a PIP, issued a written warning, and ultimately terminated, see,
e.g., Am. Compl. 1 98, this evidence is insufficient. Temporal proximity in and of itself is
generally "insufficient to satisfy [a plaintiffs] burden to bring forward some evidence of
pretext" for retaliation. El Sayed v. Hilton Hotels Corp., 627 F.3d 931, 933 (2d Cir. 2010).
Moreover, negative feedback for the exact behavior that led to Plaintiffs termination —

12a
namely, her refusal to complete the Tasks — preceded her August 13, 2015 filing with the
EEOC. See Am. Compl. 86 (describing the fifing of the EEOC charge); Defs. 56.1
2136 (discussing Plaintiff’s actions between April and July 2015). "Where timing is the only
basis for a claim of retaliation, and gradual adverse job actions began well before the
plaintiff had ever engaged in any protected activity, an inference of retaliation does not
arise." Slattery v. Swiss Reins. Am. Corp., 248 F.3d 87, 95 (2d Cir. 2001).
In sum, based on the undisputed facts, Plaintiff’s claim of retaliation fails as a
matter of law.
b) Harassment / Hostile Work Environment
Plaintiff’s fourth cause of action alleges that she was harassed based on her race,
first by Sullivan, and later by Shillingford and Khavin. Am. Compl. Ulf 125-33. The Court
construes this claim as one for hostile work environment. See Triestman, 470 F.3d at 472.
To establish a hostile work environment claim, a plaintiff must first show that the
harassment was "sufficiently severe or pervasive to alter the conditions of the victim's
employment and create an abusive working environment." Alfano v. Costello, 294 F.3d
365, 373-74 (2d Cir. 2002) (citing Harris v. Forklift Sys., Inc., 510 U.S. 17, 21 (1993)).
Plaintiff alleges that Sullivan "fought tooth and nail" to have her comments be a
part of Plaintiff’s 2014 year-end performance review, even though Plaintiff had
transferred teams. Am. Compl. f 133. Even if this were "harassment" severe enough to
create an abusive working environment, Defendants have presented undisputed facts that
it was company practice that the primary feedback and rating be provided by the manager
under whose supervision the employee had spent the majority of the year, and Sullivan
was acting at the directions of HR. See Declaration of Michele Sullivan,
9, Ex. B.
Plaintiff’s allegations against Khavin and Shillingford on this cause of action simply
repeat the previously dismissed claims she made about the Tasks. Plaintiff does not raise
a triable issue of fact with respect to their alleged harassment of her either.
c) Aiding and Abetting
Plaintiffs third and fifth causes of action are two sides of the same coin as each
alleges that various supervisors or HR representatives facilitated or failed to prevent the
above-alleged violations. Her third cause of action — "Aiding and Abetting" Title VII
violations — is not a viable claim under Title VII or § 1981. See, e.g., Long v. Marubeni
Am. Corp., No. 05-CV-0639 (GEL), 2006 WL 547555, at *4 (S.D.N.Y. Mar. 6, 2006). Even if
it were, without an underlying violation of those statutes, abettor liability cannot be
established.
Plaintiff’s fifth cause of action — "Failure to Take Steps to Prevent Discrimination,
Retaliation and Harassment" — primarily charges Chase's HR department with failing to
prevent harassment and discrimination by conducting bogus investigations and otherwise
covering up her treatment. Am. Compl.
136-41. Chase did conduct prompt
investigations after she raised her concerns; Plaintiff is simply critical that their
conclusions were that Plaintiff’s complaints were unsubstantiated. Given that the Court
concludes that Plaintiff has failed to raise an issue of material fact regarding her

13a
underlying harassment, retaliation, and discrimination claims, her allegations regarding
Chase's failure to intervene must fall too.
B. Common Law Torts
Finally, Plaintiffs seventh and tenth causes of action are better construed as tort
claims than as claims brought under Title VII or § 1981. Her seventh cause of action, for
"Intentional and/or Negligent Infliction of Mental Physical and Emotional Distress," is
best considered under the two separate torts of "intentional infliction of emotion distress"
("IIED") and "negligent infliction of emotional distress" ("NIED"). The IIED tort "provides
a remedy for the damages that arise out of a defendant engaging in ‘extreme and
outrageous conduct, which so transcends the bounds of decency as to be regarded as
atrocious and intolerable in a civilized society." See Turley v. ISG Lackawanna, Inc., 774
F.3d 140, 157 (2014) (quotation omitted). Based on the undisputed facts, a reasonable jury
could not come to that conclusion here. Cfid. at 161 (collecting citations for the proposition
that "the failure to respond appropriately to complaints of harassment... will not be
sufficiently egregious").
Second, in New York, the NIED tort is governed by the Workers' Compensation Law
and so Plaintiff is barred from bringing a negligence claim against Chase here. See Johns
v. The Home Depot U.S.A., Inc., No. 03-CV-4522 (DC), 2005 WL 545210, at *8 (S.D.N.Y.
Mar. 8, 2005), aff’d, 180 F. App’x 190 (2d Cir. 2006).
Plaintiffs tenth cause of action — for "Defamation of Character on the Basis of
Race" — is best construed as either a variation of the dismissed harassment claims
addressed above, or as a defamation claim under New York state law, in which case the
claim is time-barred. Plaintiffs allegations center on the actions of Sullivan and Liasis, all
of which occurred more than one-year prior to her filing of the complaint. See Am. Compl.
ft 196-216; see also Wellesley v. Debevoise & Plimpton LLP, 346 F. App'x 662, 663 (2d Cir.
2009) (citing N.Y. C.P.L.R. § 215(3)).
***

Overall, the evidence is "so overwhelmingly tilted in one direction that any contrary
finding would constitute clear error." Danzer v. Norden Sys., Inc., 151 F.3d 50, 54 (2d Cir.
1998) (citations omitted). When an employer "provides convincing evidence to explain its
conduct and the plaintiffs argument consists of purely conclusory allegations of
discrimination, the Court may conclude that no material issue of fact exists and it may
grant summary judgment to the employer." Walder v. White Plains Bd. of Educ., 738 F.
Supp. 2d 483, 493 (S.D.N.Y. 2010) (citations omitted). That is exactly the case here.
The undisputed facts, which are all supported by citations to evidence in the record,
warrant a grant of summary judgment to Defendants on all counts, and the dismissal of
Plaintiffs claims.

14a
IV. CONCLUSION
For the foregoing reasons, Defendants' motion for summary judgment is
GRANTED. This resolves Docket Number 89. The Clerk of Court is respectfully directed to
close the case and enter judgment. A copy of this Order will be mailed to the pro se
Plaintiff by Chambers.
The Court certifies under 28 U.S.C. § 1915(a)(3) that any appeal from this order
would not be taken in good faith, and therefore in forma pauperis status is denied for the
purpose of an appeal. See Coppedge v. United States, 369 U.S. 438, 445 (1962).
SO ORDERED.
Dated: March 27, 2018
New York, New York
/s/
ALISON J. NATHAN
United States District Judge

Appendix F
Clerk’s Judgment United States District Court for the Southern District of
New York (March 28, 2018)

15a
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF NEW YORK
X
Candice Lue,

March 28, 2018.
Plaintiff,
16 CIVIL 3207 (AJN)
-againstJUDGMENT

JPMorgan Chase & Co., et al.,
Defendants.
X
It is hereby ORDERED, ADJUDGED AND DECREED: That for the reasons
stated in the Court’s Memorandum Opinion and Order dated March 27, 2018, Defendants’
motion for summary judgment is granted and the case is closed. The Court certifies under
28 U.S.C. § 1915(a) (3) that any appeal from this Court’s Order dated March 27, 2018
would not be taken in good faith, and therefore in forma pauperis status is denied for the
purpose of an appeal.
Dated: New York, New York
March 28, 2018

RUBY J. KRAJICK
Clerk of Court
BY:
/s/
Deputy Clerk

THIS DOCUMENT WAS ENTERED
ON THE DOCKET ON 3/28/2018

